No. 19-1354

SUPREME COURT OF THE UNITED STATES

TAN PHAN,
Petitioner,;
v.
MINH TRUONG, et al
Respondents (Debtors).

CERTIFICATE OF COMPLIANCE
I certify that the accompanied PETITION FOR REHEARING
complies with the word limitation of U.S. Supreme Court
Rule 33.1(g)(xv) because it contains only 552 words,
excluding the parts of the petition exempted by U.S.
Supreme Court Rule 33.1(d).
It also complies with order list: 589 u.s. a single paper copy
of the 33.1 document but printed on 8/4 x 11 inch paper
may be filed, then the Court may later request booklet format.
Date: October 26th , 2020

Tan Phan (pro se)
3770 Lovers Wood Ln #1003, Houston, TX 77014
tp 110942@yahoo.com
(832) 554-6642

